BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Petition for Writ of Certiorari in
American Contractors Supply, LLC, v. HD Supply
Construction Supply, Ltd., was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day service and e-mail to the following
parties listed below, this 2nd day of August, 2021:
Milton Russell Wofford, Jr.
Carroll & Weiss
1819 Peachtree Rd STE 104
Atlanta, GA 30309
(404)-228-5337
rwofford@carrollweiss.com

Counsel for Respondent
Jeffrey L. Berhold
Counsel of Record
Jeffrey L. Berhold, P.C.
1230 Peachtree St., Suite 1050
Atlanta, GA 30309
(404) 872-3800
jeff@berhold.com

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 2, 2021.

Amy Triplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notnry Public, State of Ohio
My Commission Expires
February 14, 2023

